U.S. Department of Agriculture
  Office of Inspector General
         Headquarters
         Audit Report


      Rural Utilities Service
      Sale of Capital Assets
      by RUS Cooperatives




                Report No.
                09001-1-HQ
                September 2002
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:             September 27, 2002

REPLY TO
ATTN OF:          09001-1-HQ

SUBJECT:          Rural Utilities Service – Sale of Capital Assets by RUS Cooperatives

TO:               Hilda Gay Legg
                  Administrator
                  Rural Utilities Service

THROUGH:          Sherie Hinton Henry
                  Director
                  Financial Management Division


This report presents the results of the subject audit. Your agency’s May 22, 2002, response to
the draft report is included as Exhibit B. Excerpts of your response along with the Office of
Inspector General’s (OIG) position have been incorporated into the Agency Comments and OIG
Position sections of the report.

Based upon your response, we have reached management decision for both of the report’s
recommendations. Please note that final action on the findings and recommendations should be
completed within one year of the management decision to preclude listing in the Semiannual
Report to Congress. Follow your internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

If you have any questions, please call me at (202) 720-6945 or have a member of your staff
contact Philip T. Cole, Director, Rural Development and Natural Resources Division, at
(202) 720-6805.



/S/
RICHARD D. LONG
Assistant Inspector General
  for Audit
SUMMARY:

This report contains the results of our audit of Rural Utilities Service (RUS) approval of sales of
capital assets. We assessed only those sales that resulted in direct payments to private
individuals. This audit originated from a congressional request that we review the sales terms for
both a telephone cooperative that has outstanding loans with RUS, and for its television system
subsidiary. Specifically, we were asked “Under what authority can a board member or general
partner of a non-profit corporation * * * obtain personal monetary gain as a result of the sale of
that corporation’s assets?” We expanded our review to include both telephone and electric
borrowers with asset sales allowed by RUS where board members, partners, and employees
received compensation related to the sales. RUS had previously referred the three cooperatives
in our review to the Office of Inspector General (OIG), Investigations, once it became aware that
side payments had been made. We also assessed RUS policies and practices with regard to
approval of asset sales involving these types of monetary distributions.

RUS had allowed the sale of capital assets that resulted in the distribution of cash proceeds to
private individuals. RUS stated that it was unaware of the side payments when it approved the
sales. We identified over $2.9 million disbursed or promised to general managers and other
leaders having stewardship responsibility for the cooperatives, which were the direct result of the
sale of capital assets. RUS’ policy requires that sale proceeds be deposited to specific accounts
for purposes approved by RUS or for the benefit of the cooperative, used for prepayment of
outstanding RUS loans, or used to purchase or replace property that would be useful to the
cooperative. Distribution to private individuals occurred, in part, because the agency did not
have procedures to identify and control such disbursements. As a result, funds that could have
been used to further RUS approved goals were diverted for personal use.

Further, the direct payments to individuals created the appearance of a conflict of interest.

In its response to the official draft report, dated May 22, 2002, RUS agreed to the report’s
recommendations. Their response has been attached in its entirety as exhibit B. In addition,
RUS had several comments on the report’s content, which we have responded to under the
“AGENCY COMMENTS” and “OIG POSITION” sections of the audit report.

BACKGROUND:

RUS, an agency within the mission area of Rural Development, makes loans to electric and
telecommunication cooperatives to facilitate the delivery of these services to rural areas. In
addition to the basic services supported by RUS, many cooperatives have also purchased other
businesses, such as satellite television and digital broadcast systems, which become part of the
capital assets of the cooperative. With few exceptions, the capital assets of the cooperatives
serve as collateral for the RUS loans.

RUS has established controls to regulate the use and disposition of capital assets. Borrowers
must request and receive written approval for the sale from RUS, which includes a subsequent
request for release of RUS’ lien on the asset. The forms requesting approval of the sale include

USDA/OIG-A/09001-1-HQ                                                                    Page 1
information about the property, its present value, and the reason for the sale.1 The borrower
certifies several conditions, to include a selling price not less than the fair market value of the
property and that the sale is in the best interest of RUS and the cooperative. The Administrator
or his designee then approves the sale, releasing the assets that had served as collateral for the
RUS loan. RUS officials stated that requiring cooperatives to return the original sales price of
the sold asset to RUS controlled accounts ensures that the RUS loan is secured.

Some RUS electric and telephone borrowers invested cooperative funds in television franchise
businesses. As these businesses increased in value, a market for the franchise rights evolved and
some cooperatives decided to sell all or part of the television franchise rights. Intermediaries
contacted the cooperatives and offered their services in valuing the franchises, assisting
consummation of the sale, and rendering specialized legal advice.

One intermediary included in its solicitation an offer to participate in “non-compete payment
negotiation.” According to a letter sent by the intermediary, “We level the playing field by
requesting terms you may not even consider.”

OBJECTIVES:

The audit objective was to assess RUS policy and procedures for approving the sale of capital
assets when direct payments are made to board members, partners, and employees.

SCOPE AND METHODOLOGY:

We assessed RUS regulations and procedures that were in place for fiscal year 1998 through
October 2001, the time of our audit. We judgmentally selected for review three RUS
cooperatives that had sales of capital assets involving noncompetition and consultancy
agreements. Two were electric cooperatives that were selected after they had been reviewed by
OIG, Investigations, at the request of RUS. The other selection was a telephone cooperative and
was reviewed in response to a congressional inquiry. We analyzed OIG investigative casefiles
for the two selected sales by the electric borrowers, and RUS casefile information for all three
selected sales. We also interviewed the complainants, and RUS National and field office staff.
Our review was conducted in Washington, D.C.

Based on our review, the agreements were frequently “confidential” and not disclosed to the
members of the cooperatives or to RUS. The scope of our review was limited because RUS did
not keep records about noncompetition agreements and consultancy agreements, which resulted
from the sale of capital assets. Thus, we were unable to determine the severity of the problem
reported.

Except for the scope limitation cited above, the audit was conducted in accordance with
generally accepted government auditing standards.

1
 REA Form 793 “Request for Release of Lien and/or Approval of Sale”, dated June 1960 (Telecommunications
Program)
REA Form 369 “Request for Approval to Sell Capital Assets” dated December 1972 (Electric Program)

USDA/OIG-A/09001-1-HQ                                                                           Page 2
INADEQUATE CONTROLS OVER THE SALE OF CAPITAL ASSETS

The sale of capital assets by certain RUS borrowers resulted in cash payments to private
individuals. These direct payments occurred, in part, because the agency did not have
procedures to identify and control such disbursements. As a result, over $2.9 million of cash
proceeds that could have been used to further RUS approved goals were diverted to individual
use. We found that $2,169,320 had been paid to individuals at the time of, or close to, the sale
date, while $771,518 had been promised to one of these individuals over a 2-year period. The
direct payments to individuals created the appearance of a conflict of interest.

Rural Electrification Administration (REA) Bulletin 115-1, section II.B.1. (c), dated
December 29, 1972, requires electric borrowers to dispose of sale proceeds in a specific manner.
REA was the predecessor agency to RUS. Similarly, REA Bulletin 415-1, section IV, dated
July 27, 1966, regulates the disposition of sale proceeds of capital assets of telephone borrowers.
Both bulletins restrict the use of sale proceeds (less out-of-pocket expenses) to three purposes.
Sale proceeds can be deposited to the construction fund account for purposes approved by RUS,
used for prepayment of outstanding RUS loans, or used to purchase or replace other property that
would be useful to the cooperative. 2

Our review identified instances where private individuals entered into side agreements that
resulted in direct payments to individuals. The following example illustrates how a portion of
the proceeds of an asset sale went to leaders of the cooperative, instead of being deposited to
specific cooperative accounts, or used to pay down the RUS loans.

        In connection with the $17 million sale of one cooperative’s digital broadcast system
        television franchise rights, the general manager signed the statement “I hereby certify that
        the selling price is not less than the fair market value of the property; the sale is in the
        best interest of the mortgagee(s) [i.e. RUS] and this organization [i.e. the RUS borrower];
        the system after the sale will constitute a satisfactory operating unit and will not
        jeopardize the repayment of the REA or other loans, if any; and that all necessary
        approvals have been or will be obtained where required by law or by the articles of
        incorporation or by-laws of this organization.”

        We found that this certification created the appearance of a conflict of interest, as the
        general manager also signed a noncompetition and consultancy agreement to personally
        receive a total of $1,060,838 from the purchaser of the franchise ($289,320 at closing,

2
  The RUS Administrator, at the time, issued a waiver on May 15, 1997, that allowed cooperatives to deposit only a
portion of the sale proceeds to the RUS construction account, in the amount of the original investment of the sold
assets. In the two electric borrower cases reviewed, the amount deposited to the RUS construction account was only
a small portion of the total sale proceeds. At one cooperative, the television franchise rights had been purchased in
1993 for $1.4 million and then sold for $17 million in 1997. Only the $1.4 million, or 8 percent, was deposited to
the RUS construction account. The other electric cooperative had a similar percentage. Prior to the waiver, all sale
proceeds had to be deposited to the construction fund account to be used for RUS purposes. The waiver allowed the
remainder of the sale proceeds to be deposited to the cooperative’s general fund. However, the waiver was never
codified into the Code of Federal Regulations.

USDA/OIG-A/09001-1-HQ                                                                                   Page 3
        and $771,518 over the next two anniversary dates of the sale). According to the general
        manager, he did not provide information about this side agreement on the form requesting
        RUS approval because there was not a place on the form for the information. We also
        noted that the Letter of Intent proposing the sale to the general manager was marked
        “confidential” and included provisions limiting disclosure.

        We concluded that the compensation was closely linked to the sale (and not to future
        employment), since the compensation would be paid even if the general manager died
        before rendering the “services” to be provided. We did not find evidence that the price
        received from the purchaser was not fair market value or that the sale was not in the best
        interest of RUS or the cooperative; these issues were outside the scope of our audit.
        However, we believe that the existence of an undisclosed agreement for payment of over
        $1 million casts doubt about the objectivity of the general manager’s decision to support
        the sale of the asset.

        In addition to payments to the general manager, the purchaser also paid the cooperative’s
        attorney $130,000, while the cooperative’s vice president for administration received
        $100,000 and the manager of communications and marketing received $70,000, for
        entering into noncompetition agreements. These confidential cash payments also create
        an apparent conflict of interest.

        The money used to pay the general manager and other leaders of the cooperative became
        available through sale of the cooperative’s television franchise rights, collateral for the
        RUS loan. Funds were not used to pay down the RUS loan3 or to benefit the cooperative,
        as required by RUS policy. The cooperative could have made good use of the funds, as it
        charged the highest retail electric rates in the State of Alabama. Four of the counties
        served are considered poverty counties and much of the service area is very low income
        with high unemployment. It is estimated that in one county 70 percent of personal
        income is some type of welfare transfer payment.

        Our review disclosed other situations that also resulted in direct payments that depended
        on the sale of assets to a third party. For example, the Term Sheet for another sale (the
        subject of the congressional inquiry) included cash compensation of $250,000 each for
        four board members and the general manager of the cooperative, and for the general
        manager of the cooperative’s television subsidiary, for a total of $1,500,000.

        In a third instance, where a direct payment was made to an individual, the cooperative
        stated that the payment for an $80,000 side agreement came directly from the purchaser,
        and thus was not part of the proceeds of the asset sale. However the “Preliminary
        Purchase Price Summary” showed a total adjusted purchase price of $11,340,283. The
        associated disbursement schedule showed (1) the amount due to the cooperative at
        closing, (2) a note payable to the cooperative, (3) escrow amounts, and (4) an amount
        labeled “Non-Competition Agreement.” The total of these amounts equaled the total

3
 As of October 1997, the date of the sale, the borrower had over $14 million in RUS loans, which included an
$8.8 million RUS hardship loan.

USDA/OIG-A/09001-1-HQ                                                                           Page 4
        adjusted purchase price of $11,340,283. Thus, we concluded that the cash for the side
        agreement came from the purchase price paid for the asset.

Since many of these side agreements are kept confidential, RUS officials were unable to
determine the number of asset sales involving payments to private individuals. We were also
unable to determine the degree to which the proceeds of the sale of RUS collateral went to
private individuals. However, RUS did provide us with records listing another 13 sales of
similar television franchise rights. Many of these sales could also have had side agreements.

When RUS approval is required for the sale of capital assets, the agency receives certifications
from officers of the cooperative that attest to the fair market value of the sales price, and that the
sale is in the best interests of RUS and the borrower. The forms for requesting approval were
last revised long before the advent of satellite television systems and similar franchises,4 and
neither addressed nor anticipated sales of capital assets involving noncompetition and
consultancy agreements. RUS officials concluded that the best interests of the Government were
met because the cooperatives made large profits from the sale of the franchise rights, thereby
increasing the ability to pay off RUS loans. Further, RUS stated that by requiring cooperatives
to return the original sales price of the sold asset to RUS controlled accounts, that their loans
were secured.

To avoid the appearance of a conflict of interest, and to help ensure that the proceeds of asset
sales are used in accordance with program regulations and policies, RUS should amend the
forms used by RUS borrowers to request approval to sell capital assets. This should include a
certification that the requesting official, and other cooperative leaders such as board members,
directors, and attorneys, do not have a personal financial interest in the sale. If personal financial
interests do exist, RUS should require that all side agreements and identities of interest5 have
been fully disclosed to the cooperative and to RUS. When the certifying official or other
cooperative members have a personal financial interest in the outcome of the sale, RUS should
extend the level of evidence and scrutiny required for approval, to include requiring independent
appraisals to identify the fair market value of the capital assets being sold.

We are not recommending that RUS recover the $2.9 million at this time due to the legal and
procedural difficulties arising from prior release of the collateral.

GENERAL COMMENT:

RUS officials stated that after they approved the sales they became aware of the side agreements
and referred the issue to OIG, Investigations. However, the criminal investigations performed on
the two cooperatives referred to OIG were declined for prosecution by the Assistant United

4
  REA Forms 793 and 369 were last updated in June 1960 for the Telecommunications Program, and in December
1972 for the Electric Program, respectively.
5
  An identity of interest exists between two parties, such as a RUS borrower and the purchaser of the borrower’s
capital assets, when a personal financial interest exists, when one party advances funds to the other, or when there
come into being any side deals, agreements, contracts, or understandings thereby altering or amending the
relationship between the parties involved in the transaction.

USDA/OIG-A/09001-1-HQ                                                                                  Page 5
States Attorney. RUS noted that the two investigations concluded that the noncompetition
agreements were legal and a common business practice. RUS officials should be aware that the
need for policy change is not dependent on a prosecutive determination. The issues described in
this audit report warrant corrective action by RUS, regardless of whether a criminal prosecution
will result from any undisclosed side agreements. Implementation of our recommendations
could add support for prosecution in the future if similar transactions occur.

RECOMMENDATIONS:

   1. Amend the RUS approval forms to include a certification that the requesting official and
      other cooperative leaders or members do not have a personal financial interest in the
      proposed sale of capital assets, which represent collateral for the RUS loans.
      Alternatively, if personal financial interests do exist, RUS should require a certification
      that all side agreements and identities of interest resulting in payments to private
      individuals have been disclosed to RUS and to members of the cooperative.

   2. In instances where there is an identity of interest between the official certifying to
      conditions of the proposed asset sale or other cooperative leaders or members and the
      entity purchasing or acquiring the capital assets, require additional support (e.g.,
      independent appraisals and feasibility studies) for the certifications before granting RUS
      approval of the sale.

AGENCY COMMENTS

RUS agreed with the recommendations contained by the audit report. RUS has agreed to pursue
regulatory changes to require that cooperatives prohibit or disclose instances where cooperative
leaders or members have a personal financial interest in the sale of capital assets prior to RUS’
approval of the sale. In the interim, the agency has issued a memorandum advising their staff
that this information must be disclosed prior to RUS approval of capital asset sales.

OIG POSITION

Based on the RUS response, we accept management decision for both report recommendations.
To complete final action for Recommendation No. 1, RUS needs to provide the amended forms
used to approve the sale of capital assets. The amended forms must include a certification that
noncompetition, consultancy, or other types of agreements (where individuals gain financially
from the sale of capital assets) are not part of the sale. However, if they do exist, the agreements
must be disclosed. RUS must also provide documented procedures that will ensure that the new
forms are consistently used for all sales of capital assets. To complete final action for
Recommendation No. 2, RUS needs to provide evidence that they have established internal
controls that will require additional support, analysis, and scrutiny for capital asset sales that
involve noncompetition, consultancy, or other similar type agreements. Although not tied to
achieving final action, RUS needs to continue to pursue regulatory changes to codify the interim
corrective actions that have been initiated.



USDA/OIG-A/09001-1-HQ                                                                    Page 6
We appreciate RUS’ cooperation and assistance during this audit. We commend the agency’s
implementation of interim corrective measures to address the reported issues while it pursues
regulatory improvements. In addition to the comments on the recommendations, RUS also
commented on the content of the report. We have summarized these comments and have
provided our responses. The complete agency response is attached as exhibit B to the report.
RUS stated that the report recommendations agreed with the decisions and actions made by RUS
after OIG, Investigations, had issued their reports on the two RUS borrowers. RUS said that
they submitted workplans to the Office and Management and Budget (OMB) well before OIG
began its audit of RUS procedures. In the interim, while regulatory changes are pursued by
RUS, the Assistant Administrator of the Electric Program issued a memorandum on April 10,
2002, which instructs RUS’ Electric Program Directors on the procedures that should be
followed until the proposed rule is finalized.

RUS stated that they made “decisions” after they received the results of the two OIG
investigative reports. However, RUS provided no evidence of any “actions” that were taken on
the investigative results. After RUS referred the cooperatives that they knew to have
noncompetition agreements to OIG, Investigations, in September 1998, the agency took no
further action. Although RUS may have been in the process of codifying their policies and
procedures, we found no evidence that these efforts addressed the issue of noncompetition and
consultancy agreements. Our review, which began well before (in February 2001) the RUS
submission of workplans to OMB (in February 2002), resulted in RUS’ agreement to include the
issue of noncompetition and consultancy agreements into their efforts to codify RUS policies and
procedures. Our review also prompted the issuance of the April 10, 2002, memorandum that
requires the disclosure of these types of agreements.

RUS stated that the OIG investigations reported no instances of wrongdoing and determined that
noncompetition agreements were legal and a common business practice in the
telecommunications industry. RUS suggested that the report be expanded to clearly indicate this
statement. RUS stated in their May 22, 2002, response that based on the investigative
conclusions, they decided that actions could not be taken on the sales that had occurred, but
could change its regulations to provide tighter restrictions on such sales in the future.

However, during the audit, RUS stated that the agency took no corrective actions because OIG
had concluded that noncompetition agreements were legal and a common business practice in the
telecommunications industry. We note that OIG, Investigations, makes determinations on its
cases based on whether sufficient evidence is available for criminal prosecution. RUS continues
to confuse investigative versus audit objectives/results. As clearly stated in the report, the need
for policy change is not dependent upon a prosecutive determination. Using RUS’ logic, any
issue or deficiency which OIG, Investigations, reports as having no wrongdoing, or that is not
illegal, would require no more review or corrective action by the agency. Also, the investigative
conclusion that these agreements are legal and a common business practice has been, and will
continue to be, included in the “GENERAL COMMENT” section of the report.

RUS disagreed with our reported scope limitation. Our scope limitation was based on the fact
that RUS did not keep records on noncompetition and consultancy agreements. RUS stated that

USDA/OIG-A/09001-1-HQ                                                                   Page 7
it would be impossible for RUS to maintain records on these documents when it did not know
that such agreements existed. RUS said that they provided OIG, Investigations and Audit, with a
complete list of satellite television sales that they had approved. RUS wrote that OIG auditors
were free to expand the scope of their audit as they considered necessary, and, therefore, any
scope limitation was self-imposed.

It is RUS’ responsibility to identify and maintain records on significant issues that affect its
programs, such as noncompetition and consultancy agreements. RUS did not have records of all
completed, planned, or potential asset sales that involve noncompetition and consultancy
agreements. This information would provide the report with perspective and would disclose
whether the reported conditions were isolated instances or widespread occurrences. The
potential for future occurrence of these types of agreements and payments to individuals is
unknown to RUS. Without this information, the sample of agreements that we reviewed cannot
be related to the total universe of noncompetition and consultancy agreements. Further, it would
seem prudent that RUS would need this information before it expends resources to seek
regulatory change on an issue for which the agency has no knowledge as to its potential for
reoccurrence. Since these agreements are a common business practice in the industry, it would
seem appropriate that RUS should be aware and knowledgeable of such a common business
practice. It is RUS’ responsibility, not OIG’s, to identify these types of agreements. The agency
has recognized this responsibility by issuing the April 10, 2002, memorandum requiring that
these agreements be disclosed to the agency.

RUS stated that OIG presented no evidence to support its finding that $2.9 million paid to
individuals was diverted from furthering RUS-approved goals. They based this conclusion on
our statement that we did not find any evidence that the price received from the purchaser was
not fair market value or that the sale was not in the best interest of RUS or the cooperative.
Therefore, RUS determined that it is impossible for us to conclude that the funds were diverted
from furthering RUS-approved goals. They state that these payments may well have been in
excess of the fair market value of the assets sold, and in fact have been legitimate payments
made under noncompetition agreements.

We did state that we did not determine whether the sales price was fair market value. However,
this is not an OIG responsibility. It is the responsibility of RUS, and it is one that has not been
fulfilled. RUS procedures require the agency to approve the sales of capital assets, which
includes an approval of the cooperative’s certification that the sales price was not less than fair
market value. Our review found that RUS has approved these sales without knowing whether
the sales price was fair market value. Whether or not the sales prices were fair market value, it’s
a fact that the $2.9 million was paid or pledged to high-ranking individuals of the cooperatives,
and did not benefit the cooperative or RUS-approved goals.

Furthermore, RUS needs to recognize that the diversion of these payments to the private benefit
of individuals is a direct loss of this good will from the cooperative. Some of these funds could
have been disbursed to the cooperatives after RUS-approved goals had been met, and
subsequently used for the needs of the cooperatives, or alternatively, distributed to cooperative



USDA/OIG-A/09001-1-HQ                                                                   Page 8
members as capital credits.   However they were not and the $2.9 million went to private
individuals.

Finally, RUS said it was important to note that the noncompetition payments were made to
individuals by the buyers, and that these funds were never received or disbursed by the
cooperative. However, we found that one of the cooperatives we reviewed received $100,000
for a noncompetition agreement, a fact unknown to RUS. We did not take exception to that
payment because it did benefit the cooperative.




USDA/OIG-A/09001-1-HQ                                                          Page 9
EXHIBIT A – SUMMARY OF MONETARY RESULTS


  Finding
    No.                     Description                Amount       Reference
     1      Sales proceeds, derived from the sale of   $2,940,838       1
            capital assets, were diverted to private
            individuals and away from RUS-approved
            goals and cooperatives

1 Questioned Costs and Loans, No Recovery




USDA/OIG-A/09001-1-HQ                                                Page 10
EXHIBIT B – AGENCY RESPONSE




USDA/OIG-A/09001-1-HQ         Page 11
USDA/OIG-A/09001-1-HQ   Page 12
USDA/OIG-A/09001-1-HQ   Page 13
USDA/OIG-A/09001-1-HQ   Page 14
